<html>
<title> - BUILDING AND STRENGTHENING THE FEDERAL ACQUISITION WORKFORCE</title>
<body><pre>[Senate Hearing 110-424]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-424
 
      BUILDING AND STRENGTHENING THE FEDERAL ACQUISITION WORKFORCE

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 14, 2008

                               __________

        Available via http://www.access.gpo.gov/congress/senate

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
41-451 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
                  Evan Cash, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
       Theresa Manthripragada, Minority Professional Staff Member
                     Jessica Nagasako, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Stevens..............................................     2
    Senator Voinovich............................................     3
Prepared statement:
    Senator Carper...............................................    27

                               WITNESSES
                      Thursday, February 14, 2008

Hon. Paul A. Denett, Administrator, Office of Federal Procurement 
  Policy, Office of Management and Budget........................     4
Frank J. Anderson, Jr., President, Defense Acquisition 
  University, Department of Defense..............................     6
Karen Pica, Director, Federal Acquisition Institute, General 
  Services Administration........................................     8

                     Alphabetical List of Witnesses

Anderson, Frank J.:
    Testimony....................................................     6
    Prepared statement...........................................    36
Denett, Hon. Paul A.:
    Testimony....................................................     4
    Prepared statement...........................................    29
Pica, Karen:
    Testimony....................................................     8
    Prepared statement...........................................    54

                                APPENDIX

Background.......................................................    63
Questions and responses for the Record from:
    Mr. Denet....................................................    69
    Mr. Anderson.................................................    74
    Ms. Pica.....................................................    80


      BUILDING AND STRENGTHENING THE FEDERAL ACQUISITION WORKFORCE

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2008

                                   U.S. Senate,    
                Subcommittee on Oversight of Government    
                       Management, the Federal Workforce,  
                              and the District of Columbia,
                            of the Committee on Homeland Security  
                                          and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:48 a.m., in 
Room 342, Dirksen Senate Office Building, Hon. Daniel Akaka, 
Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Voinovich, and Stevens.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Aloha and good morning.
    This hearing of the Oversight of Government Management 
Subcommittee is called to order.
    Over the past year, this Subcommittee, as well as the full 
Committee, has emphasized the need for better acquisition 
management across the Federal Government. This is of great 
importance as the government continues to increase spending on 
contracting year after year. Today, we turn our sights to an 
important aspect of acquisition management, and that is the 
acquisition workforce.
    According to the Government Accountability Office, in 
Fiscal Year 2006, the government acquired over $400 billion in 
goods and services. That same year, the government only had 
20,000 contracting specialists in the acquisition workforce.
    Poor contract execution and oversight inevitably leads to 
problems like we saw with the Department of Homeland Security's 
SBInet virtual border fence contract, which was delivered 
months past due, or the dozens of failed contracts in Iraq and 
Afghanistan.
    Many point to the size of the acquisition workforce as a 
major factor in poor acquisition outcomes. During the 1990's, 
the size of the acquisition workforce dropped dramatically, 
leveling off at its current size in the last 10 years. However, 
during the same period, spending on acquisitions ballooned.
    Americans need to know if there are enough people to 
provide oversight of contracts so that taxpayers' dollars are 
wisely spent.
    It is important that agencies have the right tools to 
recruit and retain a strong acquisition workforce. Agencies 
already have some flexibilities to help with the hiring of 
certain acquisition professionals.
    In addition, some agencies, such as the Department of 
Homeland Security, are setting up acquisition internship 
programs to attract younger professionals into the Federal 
workforce and provide real-world on-the-job training for a 
career in acquisitions.
    Another issue is the skill sets and training of the 
acquisition workforce. Acquisition specialists and program 
managers need to have the best training available and keep the 
training up to date.
    As contracts become more complex and agencies rely on the 
contractors themselves to help define contract requirements, 
training is essential to execute contracts effectively and 
oversee them over their lifecycle.
    A problem that I am very concerned about with the Federal 
workforce as a whole, but especially with the acquisition 
workforce, is the looming surge of baby boomers set to retire 
from Federal service.
    According to the Federal Acquisition Institute, 53 percent 
of the acquisition workforce will be eligible for retirement by 
2016.
    This is especially worrisome in looking at the acquisition 
workforce where it can often take several years to get all of 
the training and accreditation needed for certain specialties. 
With every new retiree, the government is losing important 
institutional knowledge.
    The government must act aggressively now in analyzing 
acquisition workforce trends so that a brain drain does not 
develop in the acquisition community.
    To address many of the concerns with acquisition 
management, the Senate passed the Accountability in Government 
Contracting Act, S. 680 last year.
    I am pleased to be a co-sponsor of this bill. S. 680 would 
establish a government-wide internship program for acquisition 
professionals, much like the one that is already in place at 
DHS which has shown much promise.
    The bill would also create a contingency contracting corps 
to ensure that the Federal Government has the acquisition 
professionals it needs during emergencies such as Hurricane 
Katrina.
    It is my hope that we can work to enact a bill that 
contains the tools to help bolster the workforce.
    This hearing is intended to serve as a benchmark, giving an 
overall view on the current state of the acquisition workforce. 
This is an important aspect of our acquisition management 
strategy that needs continued attention from this 
Administration, as well as the next.
    Recruiting, training, and retaining an outstanding Federal 
workforce is a difficult job, maybe even more so with the 
acquisition workforce. I hope that our witnesses here today 
will be able to share with us their views on the workforce and 
what can be done to strengthen it.
    I am glad to have Senator Stevens here with us this 
morning, and I am going to ask him for any opening statement.

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman. I have 
dropped in because I have several meetings this morning, and I 
do not have an opening statement. I wanted to hear the comments 
of these witnesses, so I am pleased to be with you.
    Senator Akaka. Well, thank you very much for being here, 
Senator Stevens.
    And now I would like to turn to our witnesses. The 
Subcommittee has invited three witnesses with important roles 
in recruiting, training, and sustaining the acquisition 
workforce. Paul A. Denett, Administrator of the Office of 
Federal Procurement Policy at the Office of Management and 
Budget. Frank J. Anderson, Jr., President of the Defense 
Acquisition University with the Department of Defense, and 
Karen A. Pica, Director of the Federal Acquisition Institute.
    It is a custom of this Subcommittee, as you know to swear 
in all witnesses, so will you please stand and raise your right 
hand. Do you solemnly swear that the testimony you are about to 
give to this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Denett. I do.
    Mr. Anderson. I do.
    Ms. Pica. I do.
    Senator Akaka. Thank you. Let the record note that the 
witnesses responded in the affirmative.
    And now, I would like to call on our Ranking Member, 
Senator Voinovich, for his opening statement. Senator 
Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Yes, Mr. Chairman. I apologize for being 
late. I had something that came up that required my personal 
attention. Thank you for holding this oversight hearing.
    Senator Akaka, you and I have focused the work of this 
Subcommittee on understanding the challenges that our 
government faces in recruiting and retaining highly skilled 
workforce for the 21 Century. We have been working on this for 
almost 9 years.
    Today, we are focused on a critical segment of that 
workforce: The acquisition professionals.
    The Federal Government spends a staggering $400 billion 
annually to procure goods and services. That amount continues 
to rise annually, but the number of individuals responsible for 
spending and managing those contracts does not.
    According to the Federal Acquisition Institute's latest 
annual report, by 2016, half of the government's contracting 
specialists will be eligible for retirement.
    That is only 8 years away, and the risk of such 
institutional knowledge and experience walking out the door is 
of grave concern to all of us.
    The Federal acquisition workforce has a tremendous 
responsibility in being stewards of the taxpayer dollars. They 
are the individuals who determine whether the government needs 
the assistance of the private sector to help meet its mission. 
They determine who will provide the goods or service. They 
oversee the work of the contract partner.
    We see challenges in every department and agency of the 
Federal Government in every stage of the acquisition process. 
This includes award protests, cost overruns, late delivery, and 
disputes over claims and payments.
    When their job is not done well, the acquisition workforce 
sees the impact through countless media reports and 
Congressional hearings.
    They end up on GAO's High-Risk list, such as DOD weapon 
systems acquisition, DOD contract management, NASA contract 
management, and management of interagency contracting.
    I would venture to say, however, the acquisition workforce 
is not at fault.
    After all, it was Congress that mandated the Department of 
Defense in 1996 to cut 15,000 positions from its acquisition 
workforce and develop a plan to further reduce the workforce by 
25 percent.
    For Fiscal Year 1997, Congress further mandated the 
Department cut another 15,000. Mr. Chairman, I think you would 
agree such arbitrary quotas do not equal strategic human 
capital management. We have done that too often, in too many 
places in this government.
    All too often, Congress will direct the Executive Branch to 
do something, but we do not appropriate the money to fund those 
activities. Then, the Executive Branch gets called before 
Congress to explain why they have not accomplished their 
mission. Too often, you do not tell us it is because you did 
not give us the money to hire the people that we need.
    As another example, every day we hear the tragic stories of 
disabled Americans who are not able to have their disability 
claims approved in a reasonable timeframe. The average 
processing time can exceed a year. However, if we compare the 
budget request and the appropriated funds for the 
administrative costs to do this work, Congress continually has 
not given the Social Security Administration enough money.
    Mr. Chairman, the acquisition workforce is overworked and 
does not have the appropriate training to do the job they have 
been asked to do.
    We in Congress must recognize the important work of these 
individuals and provide them with the resources they need to do 
their jobs. That is, the right people with the right skills. 
And it is significantly less costly for us to do the job right 
than to have the situation that we have today. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich.
    I want to thank our witnesses for being here. Although 
statements are limited to 5 minutes, I want all of our 
witnesses to know that their entire statements will be included 
in the record. Mr. Denett, will you please proceed with your 
statement?

   TESTIMONY OF PAUL A. DENETT,\1\ ADMINISTRATOR FOR FEDERAL 
      PROCUREMENT POLICY, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Denett. Thank you, Chairman Akaka, Senator Voinovich, 
Senator Stevens, and other Members of the Subcommittee. I am 
pleased to appear before you today to discuss the Federal 
acquisition workforce. I have prepared written remarks that I 
would like the Subcommittee to enter into the record, and would 
like to briefly summarize my comments for you now.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Denet appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    Strengthening the professionalism of the acquisition 
workforce is a top priority for the Office of Federal 
Procurement Policy. The skills and good judgment of our 
acquisition workforce are closely tied to the government's 
ability to buy needed goods and services and deliver effective 
results.
    I thank the Congress for its recent actions to support our 
workforce by making the acquisition workforce training fund 
permanent and extending direct hire authorities. These are 
critical authorities to ensure our workforce is well equipped 
to meet our agency needs.
    OFPP has taken unprecedented actions in close partnership 
with the Federal Acquisition Institute and with strong support 
of the Defense Acquisition University to improve the caliber, 
agility, and professionalism of the workforce.
    First, we have developed certification programs that 
standardize training and experience requirements for 
contracting officers, contracting officers' technical 
representatives, and program managers across all the civilian 
agencies.
    These structured programs will help strengthen our 
employees' capabilities and professionalisms by focusing on all 
the personnel who play a key role in the acquisition process. 
As opposed to just contract specialists, we will significantly 
improve our stewardship of taxpayer dollars.
    Second, we completed the first-ever contracting workforce 
competency survey to help civilian agencies assess their 
proficiency in core contracting competencies. Each agency, in 
consultation with the Office of Personnel Management, is using 
the results of this survey to develop a tailored plan for 
closing its own skills gaps that is being incorporated into the 
agency's human capital plan for the acquisition workforce 
succession planning.
    Third, we launched the Federal Acquisition Intern Coalition 
to improve recruitment and retention strategies among agencies 
and increase the number and caliber of new hires who enter the 
government. This coalition will make a significant contribution 
to recruiting talented business-skilled candidates and 
developing them into effective buyers through these intern 
programs.
    Fourth, we issued guidance to facilitate the hiring of re-
hired annuitants to fill critical vacancies in the acquisition 
field. We appreciate Congress providing this authority, which 
will enable agencies to manage the loss of experience and 
corporate knowledge as the baby boomer generation retires over 
the next few years.
    Finally, we established the ``SHINE'' initiative. The SHINE 
initiative is the first coordinated government-wide initiative 
dedicated exclusively to recognizing individual employees and 
team achievement of acquisition excellence within our 
workforce. These achievements have covered all aspects of the 
acquisition process.
    Today, I would like to briefly acknowledge the exceptional 
achievements of three SHINE award winners. Jean Todd of the 
Army Corps of Engineers supported numerous reconstruction 
efforts in the wake of Hurricanes Katrina and Rita, including 
accelerating removal of water and the construction of over 
81,000 temporary roofs.
    The late Commander Philip Murphy Sweet volunteered to be 
the on-site contracting officer in Central Iraq supporting the 
establishment of a criminal investigative court and helped 
ensure that the project stayed on track.
    The Bureau of Prisons Acquisition Team used an innovative 
alternative disputes resolution partnering approach in 
constructing a new, environmentally friendly Federal correction 
facility on time and within budget.
    I am confident that these initiatives I have described for 
you today will have a lasting and positive effect on the 
workforce and the performance of the government. I also believe 
these important steps address the acquisition workforce 
recommendations made by the Acquisition Advisory Panel 
established under the Services Acquisition Reform Act.
    Let me end by reiterating my appreciation for the steps 
Congress has taken to strengthen the workforce, and I look 
forward to working with you as we build on this progress.
    This concludes my prepared remarks, and I would be happy to 
answer any questions that you may have.
    Senator Akaka. Thank you very much, Mr. Denett. Mr. 
Anderson.

  TESTIMONY OF FRANK J. ANDERSON, JR.,\1\ PRESIDENT, DEFENSE 
         ACQUISITION UNIVERSITY, DEPARTMENT OF DEFENSE

    Mr. Anderson. Chairman Akaka, Ranking Member Voinovich, 
Senator Stevens, and Members of the Subcommittee, thank you for 
the opportunity to appear before you today. I will address the 
four topic areas you requested, and appreciate your including 
my full statement in the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Anderson appears in the Appendix 
on page 36.
---------------------------------------------------------------------------
    First, DOD's initiatives to recruit, train and retain; my 
views on the Acquisition Advisory Panel; training standards; 
and finally the Defense Acquisition University's (DAU) 
relationship with FAI.
    The Defense acquisition workforce faces major challenges 
involving new mission demands, evolving skill requirement, and 
the projected loss of experienced baby boomers. While hiring is 
favorable today, concerns exist about future talent within the 
science, engineering, and other discipline.
    Our recruiting and intern programs have been very 
successful, and were recognized by the Acquisition Advisory 
Panel. They are integral to the new Federal Acquisition Intern 
Coalition. We are developing a comprehensive workforce analysis 
capability. In the 1990s, the workforce was reduced without 
robust workforce planning tools. The Hon. John Young, Under 
Secretary of Defense for Acquisition Technology and Logistics, 
is pushing to provide the right tools to shape the future 
acquisition workforce. We are making real progress.
    From a training perspective, DAU is broadly recognized as 
one of America's top training institutions. We deliver 
extensive classroom, online, and knowledge sharing resources. 
As an example, our 2007 results included 123,000 course 
graduates, 244,000 continues learning graduates, and over 50 
million page views in our online knowledge center. This is a 
national resource for the entire Federal workforce.
    Our WebCasts connect senior leaders and the workforce as 
part of our leaders and teachers initiative.
    Under Secretary Young has taken this to a new level by both 
teaching in the classroom and communicating directly with the 
workforce. His weekly notes on lessons learned and leadership 
guidance are a powerful training tool.
    The Deputy Secretary, the Hon. Gordon England, has also led 
training for Lean Six Sigma, and continues process improvement 
at DAU.
    Mr. Young started the Living Library to capture 
irreplaceable knowledge from experts who are leaving the 
workplace to both support performance today and maintain this 
knowledge for the future workforce.
    I was a member of the Acquisition Advisory Panel. Overall, 
the panel made excellent recommendations. DOD has addressed 
almost every workforce recommendation and action as either 
completed or underway. We are teaming with OFPP and FAI.
    DAU follows three external training standards: Academic 
accreditation by the Council on Occupational Education, 
continuing education units by the International Association of 
Continuing Education and Training, college credits by the 
American Council on Education.
    Also Defense Acquisition Workforce members must meet the 
DAWIA, the Defense Acquisition Workforce Improvement Act 
standards.
    Certification standards are very important to us. We are 
migrating to common Federal standards. The April 2005 OFFP 
policy States, ``the Federal certification program shall be 
based on DAWIA requirements,'' and it established a framework 
that leverages DOD's competencies.
    Mr. Assad, the Director of the Defense Procurement, is 
leading a comprehensive DOD competency update. This will both 
complement and add to FAI's competency survey, mentioned by the 
Hon. Paul Denett.
    Finally, I am very proud of the DAU-FAI partnership 
established in 2005. Since 2005, FAI has co-located at DAU. 
Over 18,000 mostly Web-based grads have completed training. 
Civilian agency graduates from the continuing learning center 
increased even more dramatically--nearly 40,000 grads during 
this period.
    These accomplishments are in great part a reflection of the 
partnership that we have created, the leadership of Mr. Denett, 
and the partnership with caring. Mr. Chairman, the Under 
Secretary, John Young, has implemented a very important 
initiative to improve management of the Defense acquisition 
workforce. I am convinced his initiatives will yield 
significant and positive outcomes.
    Again, thank you for this opportunity, and I look forward 
to your questions.
    Senator Akaka. Thank you for your testimony. Ms. Pica.

 TESTIMONY OF KAREN A. PICA,\1\ DIRECTOR, FEDERAL ACQUISITION 
        INSTITUTE, U.S. GENERAL SERVICES ADMINISTRATION

    Ms. Pica. Good morning, Mr. Chairman, Senator Voinovich, 
and Senator Stevens. I am pleased to appear before you today to 
discuss the activities of the Federal Acquisition Institute 
(FAI).
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Pica appears in the Appendix on 
page 54.
---------------------------------------------------------------------------
    Since 1976, under the leadership of OFPP and now the Chief 
Acquisition Officer Council, prior to that the Procurement 
Executive Council, FAI has been providing strategic human 
capital support to promote the professional development of the 
acquisition workforce.
    The written remarks I have prepared provide more details on 
how FAI is implementing the vision shared by Mr. Denett this 
morning, so I will just highlight a few of those.
    As you just heard from my colleague, Frank Anderson, FAI 
accomplishes its many and varied missions through partnerships. 
The partnership with DOD actually dates back to about 1999, 
when OFPP and DOD first signed an agreement to share training 
development efforts that were based on the competencies that 
FAI developed and OFPP established as government-wide standards 
in 1992.
    The current partnering effort, supported by the Acquisition 
Workforce Training Fund, really opens up the DAU and FAI 
training to the entire government through a shared platform 
that Frank just mentioned.
    This shared system has contributed to FAI's increase in 
training completions. Prior to the shared platform about 16,000 
per year online, and now we are right about 40,000 a year. In 
about 2 years, we have seen that increase.
    And it opens up training in the small business area. FAI 
has several small business training modules, and right now 
about 75 percent of the students completing those modules are 
in the DOD. So we look at the partnership as a great success.
    We also count as strategic partners the Treasury 
Acquisition Institute, GSA, USDA, and EPA for delivery and 
training from everything from green procurement to 508 
compliance.
    While training is an important FAI mission, strategic human 
capital support for the acquisition workforce is really FAI's 
key strength and our legacy.
    In partnership with the government's human capital leaders, 
the Office of Personnel Management, FAI has been a leading 
acquisition workforce organization since 1976.
    In 1977, we published the first annual report on the 
acquisition workforce. The first set of contracting 
competencies was delivered in 1985, and it has been repeatedly 
matured to make sure it keeps up to date with the changes in 
the workforce today.
    The first interagency working group dedicated specifically 
to acquisition workforce was chartered in the 1980s. It is very 
active today with membership from all the Executive Branch 
agencies, several Legislative Branch agencies, members of the 
Small Agency Council, and now the intelligence community as 
well.
    We published a competency-based contract specialist 
blueprint in 1992, which formed the backbone for the current 
training and has been updated through the current training, 
again, to try to keep up with the changes in the workforce 
needs.
    The first government-wide tool developed exclusively to 
capture information on the acquisition workforce was developed 
in 2000, and we have matured the capability for reporting 
through that tool with our partnership with the Defense 
Acquisition University.
    In the 18 months of Mr. Denett's tenure and with an on 
board complement of three permanent government employees and 
two term government employees, FAI continues to be a leader in 
strategic human capital. As Mr. Denett mentioned, the first 
government-wide contracting competency survey, reaching over 
5,400 contracting professionals in 50 agencies; a report and 
recommendations on program and project management, to include 
competencies and certification standards that were unanimously 
agreed to by all 15 agencies on the work group.
    As Mr. Denett and Mr. Anderson both mentioned, a 
government-wide acquisition intern coalition that does not 
duplicate what is out there, but learns from it and creates an 
umbrella structure so we can save some work at the agency level 
while reaching out with a united front to people that are not 
aware of what contracting can do in the government.
    And then also maturing the existing ACMIS to improve data 
gathering capabilities. Again, as Mr. Anderson had mentioned, 
through the Acquisition Workforce Training Fund (AWTF), and our 
partnership with DAU, workforce managers in the agencies now 
have a much better capability to pull out information that they 
need to see who needs training, who has the skills, who has 
taken the emergency response and recovery training that could 
respond in a disaster.
    We also have templates and online tools that the agencies 
can use in developing strategic human capital plans, which are 
based on the OPM best standard practices; tools to implement 
certification programs, assess the workforce and also forecast 
agency needs.
    The Federal acquisition workforce, much like the national 
and global workforce, does face significant challenges. There 
is philosophical challenges toward work, expectations of 
organizations and employees. And while these challenges are 
going to continue, the information we have today does not 
represent a full solution for everything, but we think it is 
certainly a good start. It will help us to provide continued 
support for the agencies in recruiting, developing, and 
retaining a professional acquisition workforce to be the 
stewardship of the resources, as you all mentioned in your 
statements.
    I am happy to answer any questions about these initiatives 
or the FAI annual reports. Thank you.
    Senator Akaka. Thank you very much, Ms. Pica. Thank you for 
your testimony.
    I would like to direct my first question to the entire 
panel. As I pointed out in my opening statement, Federal 
contracting has had a negative image due to some high-profile 
problem contracts over the past several years.
    Do you think this negative image affects prospective 
employees from choosing a career in the Federal acquisition 
workforce? Mr. Denett.
    Mr. Denett. Well, we never want to project a negative 
image. I think we have a really positive story to say. As you 
heard in my opening remarks, we have launched the SHINE 
initiative.
    I think that for every bad apple or somebody who does 
something that they should not, there are thousands that are 
doing great work. There are contracting officers that are 
working with NIH prize winners in curing diseases. They are 
working with Agriculture and Interior to fight forest fires. 
They are supporting the war fighter. Just lots of very positive 
things, and I think through the SHINE initiative, we are 
drawing more attention to these outstanding men and women that 
are doing good contracting, and I think that helps us recruit.
    It is true that we occasionally have the bad story, but I 
think you have to keep things in proportion and recognize that 
we are the ones that are aggressively working with the Justice 
Department to catch those few bad apples and prosecute them.
    So we want to get out the positive story. We want to remind 
people of all the good things we are doing, how meaningful it 
is, how they, if they join the acquisition workforce can be 
part of a very important thing to our Nation and all the wide 
range of things that we contract for now. I mean, we virtually 
support every department in accomplishing their mission--are 
absolutely dependent on good contract support.
    Senator Akaka. Thank you. Mr. Anderson.
    Mr. Anderson. Yes, sir. I do believe that when the public 
is bombarded with lots of negative stories, that it certainly 
has a negative impact on our ability to recruit.
    But as I indicated in my statement, today we are being very 
successful in recruiting for the workforce. Our concern is our 
ability to continue that process. But in trying to deal with 
this issue of image, we have taken two specific actions in the 
department.
    We are initiating now a program that we are calling the 
Employee Value Proposition, to frame and tell the positive side 
of being in this business. We have really exciting work. 
Individuals pick up an awful lot of responsibility. We have 
some very thoughtful training programs that we know are 
important to the future generations that we are recruiting 
today.
    So we think it is a part of our leadership in the 
organization to make sure that the employees we have today feel 
valued. And, by the way, the initiatives that are sponsored by 
the Congress, they are important to us. And then specific 
communication that we initiate. In fact, this weekend, I am 
participating in an awards ceremony for college grads for 
engineering. And that is up in Baltimore. So there are a lot of 
outreach programs. The SMART program that is in the Department 
of Defense. The STEM program that have been sponsored by the 
Congress. These are all outreach tools that allow us to get to 
the public from K through 12 to college communities to 
positively communicate the benefits of being a part of public 
service.
    Senator Akaka. Thank you. Ms. Pica.
    Ms. Pica. Yes, I do believe that there is an impact, both 
for people that are interested potentially in coming into the 
workforce and also for those that are in the workforce in terms 
of staying or leaving.
    Over the past 5 years, the government as a whole has been 
successful in recruiting more people into the 1102 series, the 
contract specialist series, than have left. To make sure that 
continues, I think one of the things that we have to do is make 
sure we are conducting outreach. And part of that outreach 
talks about what Mr. Denett mentioned with the SHINE initiative 
sharing those positive stories.
    So for the 57,000 plus people that are in the 1100 
procurement traditional series, you have a few people that are 
mentioned in the press. Recently, yesterday, there were some 
more that there are some problems with.
    So what we would like to do is share success stories 
through the SHINE initiative. OPM also has a wealth of 
knowledge about what I did at work today that highlights kind 
of the neat things that you do with acquisition and 
contracting.
    When I am out speaking, a lot of people are not aware that, 
for example, disaster recovery certainly has a significant 
support that comes from contracting. We need to share those 
stories.
    The Partnership for Public Service has an outreach program 
that's called Making a Difference and what they do is they 
highlight with videos and testimonials different success 
stories about this is what I did at my job today.
    The highlights are targeted towards those initiatives that 
OPM--not those initiatives, but those triggers that attract 
people to public service that OPM has identified through a body 
of knowledge. So part of the Federal Acquisition Intern 
Coalition is going to include those vignettes.
    We also have to make sure that we are caring and feeding, 
if you will, the existing workforce, and that is what Mr. 
Denett is trying to do through the SHINE initiative.
    So absolutely, I think it has an impact. Absolutely, it is 
informing what we do every day, and we are working closely with 
OPM and such leaders as the Partnership for Public Service, 
because we need to leverage what they already have to tell the 
good story that government has and create more vignettes for 
the contracting professionals so we can reach more people.
    Senator Akaka. Ms. Pica, there seems to be a problem 
growing here. The 2006 Acquisition Workforce Report found that 
only about 20 percent of workers who left the Federal 
acquisition workforce were eligible to retire. Now this means 
that 80 percent of these workers left without being eligible to 
retire. So that is a growing problem.
    Has FAI done any additional analysis that would tell us why 
these workers are leaving and where they are going?
    Ms. Pica. Well, thank you for asking. Actually, this year, 
in the report, we are adding a new section that is about where 
these people are going. And so, what we are going to have now 
is for the people that are--it is--right now, we are looking at 
for the people that are staying in government which career 
field they went into and for the people that are leaving, we 
are going to actually try to start doing some, if we can, 
interviews. It is hard to sometimes track people when they 
leave.
    Some of the agencies do exit interviews to see why people 
are leaving the workforce. So what we are going to start with 
is those people that we have identified that left the 1102 
series and went into another government series, we can track 
who those people are, and what we are going to do is ask them 
first why they left the contracting series to move into another 
series to see if we can develop some data from that. And then 
see if we can find some of the people who actually left the 
government to interview them as well.
    So thank you for noticing.
    Senator Akaka. What is the government doing to hold onto 
workers already in the acquisition workforce?
    Ms. Pica. That question is a little more challenging to 
answer.
    As Mr. Denett had mentioned, the SHINE initiative is one 
thing, because one of the things that we have learned as human 
capital leaders people need care and feeding. They need to have 
attention, highlighted for when they are doing great things, 
and then also not be--I will not say reprimanded--but be 
provided learning opportunities for maybe some activities if 
they are not quite in the right direction.
    So what we are looking at--the SHINE initiative. We are 
also looking at some mentoring. And the mentoring is not just 
for people that are in the entry-level programs. People need 
mentoring all throughout their career. Maybe it is mentoring as 
a contract professional. Maybe it is mentoring to be able to 
see where they can go as a career.
    OPM has what is called career paths that are identified for 
various elements of the workforce. And what they do is they say 
if you have a member of the workforce in this particular 
generational category, these are some things that you can do to 
help coax them, I guess if you will, in staying in the career 
field they are in.
    So we are working with the career path information. We are 
working with OPM on more research, but also the agencies have 
programs, and so you see agencies giving out rewards. You see 
agencies recognizing people, high profile, maybe articles in 
newsletters bringing attention to that.
    What we are also doing is for awards that are given out, 
whether they are through Mr. Denett's SHINE initiative or at 
the agency level, we are inviting those award winners to give 
presentations through our learning seminars.
    So, for example, we have the GSA Expo coming up where we 
have 14 or 15 different training tracks, so we are bringing 
those people in to say can you repeat and share with others 
what you did.
    What we are finding is people love to talk about what they 
have done when it has been a success. And that gives them a 
sense of pride and accomplishment, which they then take back to 
their office. And they say, I do make a difference. And that is 
part of what we are working to do, and we are also trying to 
get them to see that it is not moving paper from one place to 
another. It is providing food for in a disaster environment. It 
is putting out forest fires, like Mr. Denett had mentioned.
    Senator Akaka. Thank you very much. Senator Voinovich.
    Senator Voinovich. I had not had the opportunity to read 
your testimony, so I want to say that I have been very 
impressed with what I have heard today. Ms. Pica, I impressed 
with your enthusiasm. How long have you been with the agency?
    Ms. Pica. I have been in this job for 16 months, and prior 
to that, I was privileged to work at the Department of Homeland 
Security to set up their acquisition workforce program. So I 
have only been with FAI about 16 months, but I have been doing 
this kind of work for a few years.
    Senator Voinovich. Are you a civil servant or are you a 
political appointee?
    Ms. Pica. I am civil service, sir.
    Senator Voinovich. Mr. Anderson, are you a civil servant or 
a political appointee?
    Mr. Anderson. Civil service.
    Senator Voinovich. Mr. Denett, what are you?
    Mr. Denett. An appointee.
    Senator Voinovich. Well, it is comforting to me, Mr. 
Chairman, that the government has some people that are going to 
be continuing this work into the next Administration. One of 
the things that Senator Akaka and I are concerned about is that 
in a lot of agencies where we are starting to see some real 
transformation is whether or not the people will be there to 
pass the baton onto the next Administration.
    How much coordination is there between your efforts and the 
chief human capital officers, the CHCO Council?
    Mr. Denett. We are working really close with OPM and the 
CHCO group. In fact, this time we have included the acquisition 
function as part of their human capital plan. It included 
projections of who would be retiring in the next several years.
    Senator Voinovich. And what plan?
    Mr. Denett. This is the human capital plan that is 
submitted to the Office of Personnel Management. It was 
submitted just in the last month.
    Senator Voinovich. Strategic human capital management was 
not part of Government Performance and Results plans until 
2003. So now, each department is required to include this in 
their annual plans.
    Mr. Denett. Right. They have now submitted that, and we are 
analyzing that and then whatever number they put down--let us 
say they say we know these many people are going to retire. 
Here are the skills gaps we need. How do we fill it through 
training and through additional hires and at what grade level? 
And at the Office of Management and Budget, we will be 
working----
    Senator Voinovich. So this goes beyond acquisition. It 
looks at the whole gamut of things for a change?
    Mr. Denett [continuing]. On everything connected to 
acquisitions. The program managers, the contracting officers 
and specialists, because we need all of them if we are going to 
succeed.
    Senator Voinovich. Now, is it just on acquistion workforce 
or does it extend to other areas where we have need?
    Mr. Denett. Well, I think it covers the whole gamut, but I 
have obviously focused----
    Senator Voinovich. But your piece of it is----
    Mr. Denett [continuing]. On the acquisition piece.
    Senator Voinovich. OK. Go ahead.
    Mr. Denett. Well, anyway, so we are going to monitor that 
to make sure they, in fact, fill those vacancies because we 
want to know the right number. As has been stated earlier here, 
it is a couple of misnomers. We talk about we have gone from 
$200 billion to $400 billion in spending, and that is true. And 
there was the significant dip that you pointed out that 
happened in the 1990s, significant cutbacks in acquisition. But 
we have turned that trend around. We, in fact, have a few 
thousand additional contracting people in the 1102 series now 
than we had 2 or 3 years ago.
    So the truth is that we are now increasing the amount of 
resources that we are dedicating to the acquisition field.
    The tough question is finding out what is the right number. 
So now, we are going up. So we are going in the right 
direction, but we do not want to go up dramatically the way we 
cut dramatically without doing it strategically.
    And what you have just described, working with the human 
capital plans and OPM, we are trying to make sure that each 
department knows the right number so they can try to attract 
and hire and retain the right number rather than just do a 
simplistic, well if we went from $200 billion to $400 billion, 
then I guess we should double the acquisition workforce. Well, 
it is not as simple as that.
    Senator Voinovich. But are agencies being forthright in 
giving you their best estimate of what resources or are they 
holding back because they are fearful that it is too expensive 
and will be turned down.
    Mr. Denett. Well, I know Homeland Security and others have 
asked for hundreds of additional people, and we have been 
supportive of that. And they are embarking on an aggressive 
program to hire.
    Senator Voinovich. And I want to say that I notice that the 
Department of Homeland Security has requested $3 million to 
fund an acquisition intern program.
    Mr. Denett. Right.
    Senator Voinovich. But that kind of transparency in money 
requesting is not common. For instance, at the Department of 
Defense, there is no way to tell what the budget allocation is 
for the acquisition workforce.
    Mr. Anderson. Senator Voinovich, as you may be aware, in 
the NDA 2008 authorization, there is a section 851 that 
specifically requires that we develop a human capital strategic 
plan and that in that plan that the acquisition workforce will 
have a dedicated section to look at----
    Senator Voinovich. Was there any money just specifically 
requested?
    Mr. Anderson. I would have to go back and look 
specifically----
    Senator Voinovich. Would you find out for me?
    Mr. Anderson. Yes, sir.
    Senator Voinovich. Yes, I would like to know, because they 
put everything under personnel.
    Mr. Anderson. Yes, sir. But I can tell you for sure that 
there are active intern programs already ongoing, so we are not 
starting a new program. We have had active programs for many 
years that have been very successful.
    There is already an intern program office for the Air Force 
at Randolph Air Force Base. We have been successful with the 
Palace Acquire Intern Program. So this is not a new requirement 
that we are starting.
    We are stepping back to take a look at whether or not we 
need to increase the size of those intern programs because of 
our concerns about projected losses.
    Senator Voinovich. You are talking about an intern program. 
That means that you hire people while they are in school to be 
an intern? Tell me about that.
    Mr. Anderson. This is recruiting people out of college who 
come in and go into dedicated and specific development programs 
for the acquisition community. And they are ongoing programs in 
all of the services.
    Senator Voinovich. But are they on the payroll?
    Mr. Anderson. They are.
    Senator Voinovich. Yes, and congratulations on working with 
the Partnership for Public Service. Max Stier's group has been 
doing work.
    Mr. Anderson. Right.
    Senator Voinovich. But the fact is that you go to the 
colleges and let them know what opportunities are available.
    Mr. Anderson. We do. In addition, for the technical 
community, we are very concerned about the programs that have 
been supported by the Congress, the SMART program, the STEM 
program that gives us outreach to K through 12 to get people 
interested.
    Senator Voinovich. Another question I would like answered, 
and I will have my staff get it to you, is that we passed the 
America Competes Act in response to the National Academy of 
Sciences report.
    Mr. Anderson. Yes, sir.
    Senator Voinovich. Rising Above the Gathering Storm. Yes.
    Mr. Anderson. Yes, sir.
    Senator Voinovich. I would be interested to know just what 
impact you think the America Competes Act is going to have on 
your ability to attract folks in the STEM area.
    Do you have an opportunity to go out to a school and say to 
find a bright student that might be interested in going to work 
for the government and offer him a scholarship in exchange for 
working at an agency after graduation.
    Mr. Anderson. I would like to take that as a question and 
get back to you.
    Senator Voinovich. My other question is regarding workforce 
flexibilities, do you think you have enough flexibility for 
hiring? Our legislation provided some more flexibilities to 
departments. The question is are they using those 
flexibilities?
    Last but not least, if you are in a position to be losing 
people, and there are experienced retirees, do you have the 
capability to bring back an annuitant, to help train the new 
people without them losing their annuity?
    Mr. Anderson. Right.
    Senator Voinovich. We are concerned about the government 
ability to get the right people. Is one of the reasons why 
acquisition professionals are leaving because in the private 
sector there is such a demand for companies to offer more 
money.
    Mr. Anderson. I would like to respond to that. We do have 
turnover in the workforce, but we are being very successful at 
retaining our fair share of the workforce. In fact, our studies 
have indicated that on average the members in the acquisition 
workforce actually stay in the workforce longer than other DOD 
employees.
    The turnover rate, as we have looked at that inside the 
Department, and it should be noted that 70 percent of the 1102 
series employees are in the Department of Defense. So when we 
go look at turnover rates, we have people who are moving out of 
the acquisition career field into other career fields, and it 
is primarily because of people who are seeking promotion 
opportunities.
    We also have people out of other career fields who are 
migrating into the acquisition workforce, so that provides a 
healthy mobility for people within government.
    Our big concern is that there is a large number of people 
who are surely heading to a point of retirement, and we want to 
ensure that we do have the right programs in place today that 
will allow us to continue to be successful at bringing 
employees in so that we can train and have people prepared--as 
you mentioned Chairman Akaka--to get them now in the timeline 
to get to a fully qualified employee.
    So we are going back through and we are re-looking at all 
of our certification programs to convince ourselves that we 
are, in fact, producing the fully qualified individuals to do 
the work that we need them to do.
    We have also started through the online programs that we 
have in place where we do interviews with existing experts to 
capture their expertise today so that it will be available for 
the future workforce.
    So we are not losing all of that expertise.
    I mentioned in my statement that Under Secretary Young had 
started this program of a living library. So we are going 
through now trying to identify those unique experts to get 
interviews with them that will be available where a person can 
get to it through Web casts, through captured knowledge that we 
will archive in videos.
    So if we were in a position, we could tape this hearing and 
frame that so that people in the future can come look at it and 
we do not lose benefit of this knowledge and expertise of the 
existing workforce.
    And that is an evolving initiative to help deal with this 
challenge.
    Senator Voinovich. Thank you. Senator, you are generous 
with your time.
    Senator Akaka. Thank you very much, Senator Voinovich.
    To follow up, Mr. Anderson, the Department of Defense 
requires both a bachelor's degree as well as academic credit 
hours in a business-related field. But to qualify to be in the 
1102 series----
    Mr. Anderson. Yes, sir.
    Senator Akaka [continuing]. While only one or the other is 
required outside of DOD.
    Does the Defense Acquisition University still offer 
contracting training courses, even the online courses, to 
individuals from other agencies that have either a bachelor's 
or the business degree, but not both?
    Mr. Anderson. Yes, sir. In terms of the offering of 
courses, and this is a reflection of the partnership that we 
have in place with Mr. Denett and Ms. Pica, our Web training is 
available to everyone. And we have specific initiatives, so if 
an individual is identified as being in the contracting 
community, they can get to our Web training. That is a part of 
our partnership. And that has been very successful. As I 
mentioned, over 18,000 grads during the previous 3 years have 
completed certification courses; and then the over 40,000 
people who have gone through the continuous learning center. So 
there is a very large collection of courses that are available.
    At the continuous learning center, we have over 200 courses 
that address a number of the gaps that have been identified 
that is available to an individual today, and we are working at 
developing more targeted initiatives.
    The challenge is the resident courses that we have that is 
really driven by the internal demands in the Department. So 
what we have done, we take the material that we have. We make 
it available to Ms. Pica who works contracts so that external 
providers can take the same learning content and deliver in 
resident courses to members in all of the Federal agencies.
    Senator Akaka. Now, Mr. Denett, the 2006 Annual Report on 
the Federal Acquisition Workforce found that the average 
general schedule level for contracting specialists in the 1102 
series is a GS-12.
    Out of the entire 1102 workforce, only 706 individuals were 
GS-15. If individuals are willing to put in the training to 
become an acquisition professional, is there a career track for 
them to stay in the acquisition community and continue to 
advance in that area?
    Mr. Denett. Absolutely. It is a great time to be in the 
acquisition field. Because of baby boomers who are retiring, 
there are vacancies occurring each year at the highest ranks, 
at the senior executive service rank. And that spills down into 
the GS-14's and GS-15's.
    I think there is improvement in classification recognizing 
the complexity of acquisition jobs; that there are more 
contracting officers that are able to get GS-14's and GS-15's. 
I think the fact that they can move among departments is a real 
plus, too, because when we are trying to attract the people, we 
say, you go work for General Motors. If they have a bad year, 
you might have to leave and start all anew on your benefits. 
When you are in the Federal Government, you might be working 
for Agriculture for 5 or 10 years and then you move over to the 
Army and then you go to the Interior.
    Well, they do not lose the longevity. They keep their 
benefits package, the health care. They're earning--accruing 
annual and sick leave. That is portable with them as they move 
among the government.
    So I think there are definitely career paths. Many of them 
are formal, like in the beginning, this new initiative of our 
coalition--we have a nice little flyer here, which I could give 
you a copy of, that has come out just in the last few months, 
but the whole theme is ``Be America's Buyer.'' And it talks 
about all the pluses of that and how there is career 
advancement opportunities.
    The intern program itself has two promotion spots after 
they have completed a year each time. Then once they leave that 
and go with the residing agency, they have ladders all the way 
up to and including GS-15's.
    So it is a great field for them to get into and I think we 
have to do a better job of publicizing it, and I think we are 
doing that now. This ``Be America's Buyer'' accents all the 
positives. We can forgive college loans. We can give various 
retention bonuses, opportunity to work with some really neat 
people and great programs. So they have got a ladder, and I 
think we are going to do a good job of getting our share of the 
talent pool and retaining them as long as we keep them engaged 
in doing contracts.
    Every now and then, we have a hiatus. I mean, I am really 
glad that you all got us the direct hire authority, but 
unfortunately, it did lapse on September 30, and we had a few 
months where Homeland Security and others had people queued up 
and they could not exercise the authority. That is behind us 
now. We had it restored. But anything you can do to try to 
prevent having any of those hiatuses in the future would be 
very helpful to us.
    Senator Akaka. Thank you. Well, Mr. Anderson and Ms. Pica, 
I am pleased that many agencies have implemented their own 
acquisition internship programs, as you have mentioned. They 
have shown great promise as a tool to recruit new workers.
    However, I think the Federal Government may benefit from 
reaching out, and I would like to use the word ``reach out'' to 
potential Federal workers before they have even graduated. And 
you have mentioned that you do this with some of the high 
schools as well as colleges.
    Have you worked with colleges or universities to develop 
training partnerships that give undergraduates a strong 
foundation to move more easily into the acquisition workforce?
    Mr. Anderson. Yes, sir. I would like to address that. And 
this is a very strong initiative that we have ongoing today. In 
fact, next week, I will be traveling to Fayetteville State 
University in North Carolina, and as part of that, we will be 
meeting with administrators from historically Black colleges 
and universities. And I will be making a pitch relative to both 
the opportunities and the importance and job satisfaction of 
being a public servant. So that is one avenue.
    I am doing that, but we have numerous other leaders who are 
doing that.
    A program that we recently established with one of our 
local organizations, Warner Robbins in Georgia, we created a 
partnership between that organization, Macon State University, 
and DAU, where we are getting programs in place that allows 
them to cover a lot of the competencies that are important to 
us in the acquisitions, specifically contracting community, so 
these students when they go into Macon State they start to 
target public service early.
    And when they come on board, because of the prescribed 
program that they have gone through, it will give them advanced 
standing relative to their Federal certification day one.
    So there are a number of initiatives that we have across 
the board. In fact, I believe we have more than 50 partnerships 
in place now with academic institutions. So we think that your 
perspective is absolutely on target. We are working that hard, 
and trying to expand the program. In fact, it is one of the 
things that we have done collaboratively with FAI. We have 
brought them into the partnership program, because we believe 
this is also important to the Federal sector.
    Senator Akaka. All right. Ms. Pica.
    Ms. Pica. I think there is a two-part solution to what you 
had talked about. In the past, as Frank had mentioned, FAI had 
been working with universities to put some of that information 
in the curriculum. And so that certainly DOD has made extensive 
roadway into that piece of it. So we are going to leverage what 
they have.
    The other piece is, as you have mentioned, that reach out 
capability that you need to have for getting people interested. 
So one of the things that we are working with, and this goes 
back to, Mr. Voinovich, what you had said about the hiring 
authorities. There is a lot of hiring authorities that people 
are not aware of, and one of the things that we are doing in 
the intern coalition is make them aware of them. So you can go 
to the junior college level. You can get people when they are 
sophomores in college. You actually can bring them into the 
work environment on a part-time basis. They can get some of the 
training that they need both on the job and in the classroom to 
become a contracting professional, and because the hiring 
authorities are there--what you do is you work people through 
them.
    I have done this before in a previous position I had with 
the Coast Guard. I brought somebody in that was a sophomore in 
college. She ended up then being a GS-12 down in Norfolk, which 
again, for that area, a GS-12 is top tier. She does not want to 
be a GS-15 in DC. She wants to stay down where she is.
    But because the hiring authority allowed us to bring her in 
while she was in college, she got training. She got experience. 
She got mentoring. She was able to be non-competitively 
appointed to the next level and then brought into the Federal 
sector just like that.
    And so what she was able to do, like the old shampoo 
commercial, she told two friends and they told two friends and 
then there was a huge push to try to get more people in that 
program in Norfolk.
    So along with the curriculum that is existing or being put 
in place at colleges, you have to mirror that with more 
knowledge of these hiring authorities so people understand how 
to use them to attract more people.
    And I tell you when some of those college kids at the 
vocational level or the junior college level or even when they 
are juniors and sophomores in college, they get real excited 
about making what we might think is not a lot of money. But 
when you are in college, that can be a lot of money.
    So working with the HBCUs--I was up meeting with NAFEO the 
other day to talk about how to bring kids in--they have an 
excellent program where they bring kids in for the summer, 
sometimes semesters. And then all those people are eligible for 
the training while they are in the programs. So I think it is 
an excellent idea, and along with Mr. Anderson, we are taking 
some action with the agencies to help them use those 
flexibilities to be able to do that.
    Senator Akaka. Well, it is great to hear your responses, 
and I know Senator Voinovich and I are hearing some good things 
in this hearing and I am happy to hear that. Senator Voinovich.
    Senator Voinovich. I do not think I got an answer to the 
question of reemployed annuitants. If you need them, do you 
have the flexibility to rehire them?
    Mr. Denett. We are bringing in reemployed annuitants. In 
fact, Homeland Security is getting reemployed annuitants to 
actually mentor the new interns. Their dilemma was with all the 
additional contracting that they are doing at Homeland 
Security, they needed all their contracting officers to work on 
live contracts and found themselves short staffed to peel some 
of those people out to mentor new incoming interns.
    So they are going to rely heavily on reemployed annuitants 
to fill that role.
    Senator Voinovich. So they have the flexibility to do it?
    Mr. Anderson. We do. The one piece that we are working on 
is the direct hire authority that was written into law for the 
Federal agencies, and we are working to ensure that we also 
have that flexibility.
    Senator Voinovich. OK. But, so you are not sure that you 
have authority to reemploy annuitants?
    Mr. Anderson. No, for the reemployed annuitants, we do have 
the flexibility----
    Senator Voinovich. You are in a good position then.
    Mr. Anderson [continuing]. To work that.
    Senator Voinovich. Yes, you said that your direct hire 
authority ended at the end of September. Is that because it was 
part of the Defense Authorization bill which was not enacted in 
time?
    Mr. Anderson. Right.
    Senator Voinovich. Or it lapsed, and so you were there, 
ready to hire somebody but unable to do so. I am going to be 
giving a floor speech on the issue of the impact of not passing 
our appropriations on time. We have omnibus appropriations 
bills that contribute to chaos in the Federal Government. 
Agencies do not know what their budget will be or, in this 
particular case, your authority lapsed. Why have you not sought 
direct hire authority through the Office of Personnel 
Management?
    Mr. Anderson. I am not sure about that, sir. I will have to 
check. We are working with our HR community. We do not believe 
that this is an issue of getting the authority. We just need to 
get it worked--everything in terms of our relationship with the 
Senate I believe is very positive and the feedback has been 
positive. So it is being worked on the direct hire authority.
    Senator Voinovich. Yes, but we----
    Mr. Anderson. And I would have to check. I do not believe 
that we have that authority now, but I would have to confirm 
that.
    Senator Voinovich [continuing]. Gave OPM the authority to 
approve direct hire. I do not know why you would seek authority 
in the Defense Authorization bill. You have the authority and I 
am asking why should it expire because we do not get the 
Defense Authorization bill passed on time?
    There ought to be some permanent thing there so that we do 
not have that situation.
    Mr. Denett. I agree with that. And we would welcome that.
    Mr. Anderson. We would agree with that. Right. Because if 
it is something that we have all collectively decided that we 
need to do, we should not have to continue to ask for it.
    Senator Voinovich. Absolutely. I am really quite pleased 
with your SHINE program. I would like you to tell me a little 
bit more about it. One of the things that I did when I was 
Governor of Ohio was institute a program to recognize 
employees, and I would present certificates. Do you have a 
program to recognize who comes up with ideas on how they can be 
more efficient or save money?
    Mr. Anderson. Yes, sir.
    Senator Voinovich. In Ohio, we used to give out cash 
rewards to people for ideas that saved money. We also had the 
choice of money or we had a catalogue where they could get a TV 
set or other gifts. And I am telling you it was great.
    Mr. Denett. Yes, some of our SHINE awards do include 
monetary recognition. Some of them are just certificates. At 
the Ronald Reagan Building this last year, we had big posters 
with pictures of the winners with little captions of what they 
had accomplished. We then had panels where award winners met 
before thousands of people in workshops to explain what they 
had done.
    FAI, DAU, and others then export this as best practices 
that people can tap into and share and try to copy. So it is 
very uplifting to have a gathering like that where these people 
do that kind of work behind the scenes tirelessly get 
recognized by their peers. It goes through a scrub with judges 
from academia, from Federal and from private, and it is quite 
an accomplishment to win one of these.
    Senator Voinovich. Now is this just in your acquisitions 
area in OMB?
    Mr. Denett. Well, acquisition throughout the Federal 
Government; yes.
    Senator Voinovich. Throughout the Federal Government.
    Mr. Denett. I do not know if you two want to add to that or 
not.
    Mr. Anderson. I would like to say that I think the SHINE 
program has been extremely successful. We were very proud of 
the nominees from the Department of Defense who were selected. 
So it is a program that I think is having a very positive 
impact across the Federal enterprise.
    I would like to also mention a program that we have started 
in the Department of Defense, which is our Acquisition 
Workforce Development Award, which is presented annually and 
that was operated under the leadership of the Hon. John Young, 
where every year we recognize the organizations who have 
created what we view as being the most innovative workforce 
development award, because when you really go look at it, at 
the corporate DOD level, we can set guidance, metrics, policy, 
but to be successful, we really do need field organizations 
that have embraced these programs. And what he is attempting to 
do through this is to create healthy competition at all of our 
bases and locations so that we have all of the leadership team 
involved and actively developing healthy, rigorous workforce 
development programs at the local level.
    And annually, we submit--or will select a gold, silver, and 
bronze award winners from our field programs that look at what 
they are doing outside of the structured training for workforce 
development, local recruiting, partnering with local colleges 
and universities.
    Chairman Akaka, you had mentioned the outreach, how 
important you believe that is, and the whole purpose of this 
program is to create structured energy throughout the 
Department and reach through all of the acquisition leadership 
team and that program is being very successful.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you. Here is one that Senator 
Voinovich has been working on, and I just want to hear what you 
feel about this. This question occured to me, too, when he was 
asking whether you are civil service or appointee?
    Mr. Denett, under current law, all agencies large enough to 
have a Chief Financial Officer must also have a Chief 
Acquisition Officer. That position is responsible for 
overseeing overall acquisition management at agencies, and it 
is supposed to be focused primarily on acquisition issues and 
is required to be a non-career political position. However, 
contracts do not end at the close of an Administration, as it 
is a concern of my friend, Senator Voinovich.
    Do you believe the Chief Acquisition Officer should have to 
be political positions?
    Mr. Denett. Yes, I am supportive of that, but a thing to 
remind ourselves of is immediately under that are senior 
executive positions called the Senior Procurement Executive. 
Those are all filled with career people. So even though there 
is political appointees that have the Chief Acquisition Officer 
position, they always have a SES Senior Procurement Executive 
underneath them that has continuity, career status, frequently 
have 20 plus years of service at various departments. I work 
very closely with the Senior Procurement Executives and draw on 
them constantly on working groups to have knowledge and push 
programs forward.
    So I think as long as we have that combination of the 
political Chief Acquisition Officer with the career Senior 
Procurement Executive that formula works well for us.
    Senator Akaka. Thank you so much. Now to all of you, the 
Acquisition Workforce Competency Survey, recently released by 
FAI, found that the average proficiency level of the 
acquisition workforce for many contracting skills is 
intermediate at best.
    Some of the lowest proficiency levels were in the important 
areas of performance-based acquisitions and competitive 
sourcing, where workers were only rated about a two out of 
five.
    Now what steps are being taken to apply the results of this 
survey modifying training as well as providing additional 
training to the workforce?
    Mr. Denett. I think that Ms. Pica and Mr. Anderson could 
address that the most, but I am pleased at the results that 
they have gotten. There are some existing courses that they are 
modifying. They are offering them online and in the classroom. 
And they are specifically developing some to address the 
shortcomings that the survey showed. So I will yield to you 
two.
    Ms. Pica. Thank you. The Competency Survey actually 
certainly did identify gaps, which is an excellent point of the 
survey. One of the things that we did, we have been doing 
continuing analysis on the report, and what we have noticed the 
competencies in the 1102 series are higher than for the general 
series. So what you have from that report, while overall there 
was a gap, there were 26 different job series that responded to 
that because there were at least that many different job series 
performing essentially contracting work in the government.
    So the 1102 skills set is a little bit higher and is where 
we think it should be versus the overall competency survey.
    That said, there are still gaps. So what we are doing to 
address those gaps, for example, in negotiation, there was a 
desire for more training in negotiation. That was an expressed 
desire. What we are doing is we are working with--the Air Force 
has a really strong practical negotiation course, so you have a 
little bit of information you get, but then you get in the 
classroom and you actually do practice negotiation, which we 
are finding because people are not as confident maybe in their 
knowledge and abilities when they are face to face with 
potentially somebody from the private sector, that that is an 
area of risk for them.
    And so, by May, we will have that pilot course underway, 
and it will have a service focus on it. So we are going to be 
looking at changing the scenario that is in that class into a 
more service focused scenario.
    The performance-based acquisition; absolutely. That was 
identified as another area. And what we are finding is it is 
more about defining the metrics. How do you build a good 
metric?
    So what we are doing, we have a class--FAI offers a 
classroom around the country that is a workshop in how to build 
a good performance work statement, and that includes a segment 
on what is a really good metric? How would I know I am going to 
get the result that I need?
    We also have through DAU's online learning platform, there 
is an online course people can take in that, and we are going 
to be rolling that out in 2008, if resources permit, another 
course that is designed really for the people that are in the 
requirements community so that they can identify and build good 
metrics and support the contracting community to get the 
results that they need.
    So that is something that we have worked with the General 
Accountability Office. They have identified that as an area 
that they can help us in.
    So we have additional training--toolkits. Another area that 
was in the survey that was spoken to was the contract 
management section. And again, the Partnership for Public 
Service has had about a year's worth of research they have done 
in best practices in contract administration and management.
    We are taking that research, and we are turning that into 
some online toolkits that people can use and access and then 
finally what we are doing is we are analyzing--when we first 
started looking at the Competency Survey, we noticed that there 
was in some cases a gap between the training that currently 
exists and the competencies that are required. So we are doing 
further analysis to identify those and then develop--as Mr. 
Anderson had mentioned, there are supplemental solutions, about 
200 through the online environment--targeting those particular 
areas.
    Some of the solutions will be in place this year, so when 
we redo the survey we might see some results, and some of the 
solutions might not be in place until next year because of some 
resource issues.
    Senator Akaka. Does the Acquisition Workforce Annual Survey 
also count all of those individuals in the Competencies Survey?
    Ms. Pica. No. Actually one of the benefits of the survey it 
highlighted for us there are a lot more series doing 
contracting. So that is something we need to look at.
    Senator Akaka. All right.
    Mr. Anderson. I would like to respond to that, also. In the 
Department of Defense, Shay Assad, who is the Director of 
Defense Procurement, is leading a very comprehensive competency 
survey. Our approach is a little different. And in order to get 
a closer fix on exactly what the competencies are, it has 
focused on what we view as being the major contracting areas--
base operations, major systems.
    So when you go look at the community, it is kind of 
important to get a good fix on what they are doing.
    The approach also is a little different in that we are 
doing what we refer to as couple assessments. So we get 
feedback from both the individual and their supervisor, our 
paired assessment, where we can look at them and get a fix
    What we hope to do, the work that came out of the survey is 
very important to us. We are looking at it and using it as we 
deploy initiatives, but there is a point where we hope that we 
will get integration between what has come out of that survey 
and ours as we start to look.
    We expect to have the contracting assessments that is being 
led by Mr. Assad completed in July, and at that point in time, 
we will step back and take a look at the specific training 
initiatives to deploy.
    Some of the areas that Ms. Pica mentioned we absolutely 
agree with. We know that those are issues that we need to take 
on. So we are not waiting. We are moving out, but we really do 
want to convince ourselves that the feedback from the survey 
is, in fact, a clear indication of where our gaps are.
    So we are moving a little slower. We are taking advantage 
of the work that has occurred. But it will be this summer 
before we have completed our competency survey.
    Senator Akaka. Thank you.
    Mr. Denett. I am encouraged by the cooperation between 
Defense Acquisition University and FAI. It is heartwarming, a 
lot of sharing, and a lot of making real improvements. I mean, 
we are tackling not just the contracting officer, but now for 
the first time, we are having mandatory requirements for 
program managers. They have to be trained. They have to have 
experience. You cannot just take the new kid on the block and 
say here you are in charge of this program, but they have got 
to learn through classroom and online training how they can do 
a good job at being program managers and being part of the 
acquisition team.
    Senator Akaka. Well, thank you for that statement, Mr. 
Denett. Many acquisition specialist jobs require security 
clearance, especially at the Department of Defense and at the 
Department of Homeland Security.
    This Subcommittee has held several hearings already 
relating to the backlogs and problems with the clearance 
process at DOD and across the government as a whole.
    Does the clearance backlog hurt agencies' ability to get 
new uncleared workers into the acquisition workforce?
    Mr. Denett. I would say the answer to that is yes, but I 
know it has been brought up. You have been pressing it. I know 
Clay Johnson at OMB is making it personal to really press the 
Departments to honor one another's clearances.
    Obviously, when we finally go through all this trouble, do 
the selling to be America's buyer with our little brochures and 
reach out and the campus visits they are doing and we get that 
close and then they find out that something has to be delayed a 
few more months while additional checks are going on, we are at 
a disadvantage when we do not complete those quickly and when 
we do not honor one another's because while that time lapse 
takes place, guess what? Many of them decide, I am going to go 
work for IBM or some other private enterprise.
    So we need to continue to work hard to process those as 
quickly as possible and to honor one another's clearances.
    Senator Akaka. Well, thank you very much. I want to again 
thank all of our witnesses for your testimony, and your 
responses have been excellent.
    The challenge of building the entire Federal workforce, as 
you know better than I, is not an easy job. Within the 
acquisition community, the government faces especially 
important challenges that must be confronted. The acquisition 
workforce is unique in that the government is putting great 
trust in the hands of those spending taxpayers' dollars on 
goods and services from the private sector.
    It is important that the government continue to earn that 
trust from the public through better acquisition outcomes, 
created by an even stronger acquisition workforce.
    And I want to thank you again for this hearing, and the 
hearing record will be open for 14 days for additional 
statements or questions for the record by other Members as 
well.
    This hearing is adjourned.
    [Whereupon, at 11:14 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                      STATEMENT OF SENATOR CARPER
    First, I would like to thank Chairman Akaka and ranking Member 
Voinovich for holding this timely hearing to learn about how we are 
going to solve the pervasive problems facing the Federal Government's 
acquisition workforce.
    Just last month, I chaired a hearing on the management and 
oversight of contingency contracting in Iraq. Time and again the 
panelists described to me situations where hospitals and community 
centers built by contractors violated building codes and presented 
dangerous health hazards to American troops and the Iraqi population. 
Other examples detailed how contractors were paid to construct needed 
local infrastructure that was never built and the money never refunded. 
However, the worst situation described by First Sergeant Perry 
Jefferies, U.S. Army (Ret.) was when American troops on patrol had to 
ration their scarce food and water for days because contractors failed 
to deliver needed supplies in a timely manner.
    In addition, Senator Coburn and I have held several hearings on the 
lack of contractor oversight in the government's information technology 
portfolio. My subcommittee has been investigating millions of dollars 
in danger of being wasted due to poorly planned IT investments. 
Previous hearings that I have chaired uncovered government investments 
that lacked clear goals, expectations, and most surprisingly, qualified 
project managers--all essential ingredients for an investment to be 
successful. This year doesn't look to be any better.
    Recently, the President has requested $71 billion dollars for 
fiscal year 2009 to fund IT investments. However, 72 percent of these 
projects are listed by OMB as ``poorly planned'' leaving American 
taxpayers highly susceptible to waste, fraud, and abuse.
    These are just two of many examples we have seen in recent years of 
poor acquisition practices leading to bad outcomes and waste. I know 
there are efforts underway--and the full Committee has done its part 
through some legislation put forward by Senator Collins last year--but 
we can and should do more.
    With almost half of the Federal Government's workforce able to 
retire in the next 10 years, these problems aren't going away anytime 
soon. I am interested to hear from our panel today and learn about what 
we can do now to solve these pervasive problems and ensure that the 
Federal Government is effectively overseeing contractors.
    Once again, I would like to thank Chairman Akaka and Ranking Member 
Voinovich for holding this hearing and look forward to questioning the 
panel to learn how Congress can play a constructive role to solve our 
government's acquisition workforce problem.

[GRAPHIC] [TIFF OMITTED] T1451.001

[GRAPHIC] [TIFF OMITTED] T1451.002

[GRAPHIC] [TIFF OMITTED] T1451.003

[GRAPHIC] [TIFF OMITTED] T1451.004

[GRAPHIC] [TIFF OMITTED] T1451.005

[GRAPHIC] [TIFF OMITTED] T1451.006

[GRAPHIC] [TIFF OMITTED] T1451.007

[GRAPHIC] [TIFF OMITTED] T1451.008

[GRAPHIC] [TIFF OMITTED] T1451.009

[GRAPHIC] [TIFF OMITTED] T1451.010

[GRAPHIC] [TIFF OMITTED] T1451.011

[GRAPHIC] [TIFF OMITTED] T1451.012

[GRAPHIC] [TIFF OMITTED] T1451.013

[GRAPHIC] [TIFF OMITTED] T1451.014

[GRAPHIC] [TIFF OMITTED] T1451.015

[GRAPHIC] [TIFF OMITTED] T1451.016

[GRAPHIC] [TIFF OMITTED] T1451.017

[GRAPHIC] [TIFF OMITTED] T1451.018

[GRAPHIC] [TIFF OMITTED] T1451.019

[GRAPHIC] [TIFF OMITTED] T1451.020

[GRAPHIC] [TIFF OMITTED] T1451.021

[GRAPHIC] [TIFF OMITTED] T1451.022

[GRAPHIC] [TIFF OMITTED] T1451.023

[GRAPHIC] [TIFF OMITTED] T1451.024

[GRAPHIC] [TIFF OMITTED] T1451.025

[GRAPHIC] [TIFF OMITTED] T1451.026

[GRAPHIC] [TIFF OMITTED] T1451.027

[GRAPHIC] [TIFF OMITTED] T1451.028

[GRAPHIC] [TIFF OMITTED] T1451.029

[GRAPHIC] [TIFF OMITTED] T1451.030

[GRAPHIC] [TIFF OMITTED] T1451.031

[GRAPHIC] [TIFF OMITTED] T1451.032

[GRAPHIC] [TIFF OMITTED] T1451.033

[GRAPHIC] [TIFF OMITTED] T1451.034

[GRAPHIC] [TIFF OMITTED] T1451.035

[GRAPHIC] [TIFF OMITTED] T1451.036

[GRAPHIC] [TIFF OMITTED] T1451.037

[GRAPHIC] [TIFF OMITTED] T1451.038

[GRAPHIC] [TIFF OMITTED] T1451.039

[GRAPHIC] [TIFF OMITTED] T1451.040

[GRAPHIC] [TIFF OMITTED] T1451.041

[GRAPHIC] [TIFF OMITTED] T1451.042

[GRAPHIC] [TIFF OMITTED] T1451.043

[GRAPHIC] [TIFF OMITTED] T1451.044

[GRAPHIC] [TIFF OMITTED] T1451.045

[GRAPHIC] [TIFF OMITTED] T1451.046

[GRAPHIC] [TIFF OMITTED] T1451.047

[GRAPHIC] [TIFF OMITTED] T1451.048

[GRAPHIC] [TIFF OMITTED] T1451.049

[GRAPHIC] [TIFF OMITTED] T1451.050

[GRAPHIC] [TIFF OMITTED] T1451.051

[GRAPHIC] [TIFF OMITTED] T1451.052

[GRAPHIC] [TIFF OMITTED] T1451.053

[GRAPHIC] [TIFF OMITTED] T1451.054

                                 <all>

</pre></body></html>
